USITC Office




April 1, 2000 - Septemb r 30, 200(.;.0.",.,,-__
           67$78725< $1' $'0,1,675$7,9(
                 5(63216,%,/,7,(6

7KH ,QVSHFWRU *HQHUDO $FW RI 4<:; +3XEOLF /DZ <80785,/ DV DPHQGHG/ VHWV IRUWK VSHFLILF
UHTXLUHPHQWV IRU VHPLDQQXDO UHSRUWV WR EH PDGH WR WKH &KDLUPDQ IRU WUDQVPLWWDO WR WKH
&RQJUHVV1 $ VHOHFWLRQ RI RWKHU VWDWXWRU\ DQG DGPLQLVWUDWLYH UHSRUWLQJ DQG HQIRUFHPHQW
UHVSRQVLELOLWLHV DQG DXWKRULWLHV DUH OLVWHG EHORZ=

                    2,* $8',7 $1' 0$1$*(0(17 5(9,(:
3XEOLF /DZ +31/1, <:0588   )HGHUDO 0DQDJHUV· )LQDQFLDO ,QWHJULW\ $FW
31/1         <:0698        'HEW &ROOHFWLRQ $FW RI 4<;5
31/1         43408:9       &KLHI )LQDQFLDO 2IILFHUV $FW RI 4<<3
31/1         43507;9       (QHUJ\ 3ROLF\ $FW RI 4<<5
31/1         436095        *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW RI 4<<6
31/1         4360688       )HGHUDO $FTXLVLWLRQ 6WUHDPOLQLQJ $FW RI 4<<7
31/1         4360689       *RYHUQPHQW 0DQDJHPHQW 5HIRUP $FW RI 4<<7
31/1         4370439       ,QIRUPDWLRQ 7HFKQRORJ\ 0DQDJHPHQW 5HIRUP $FW RI 4<<9
31/1         437053;       )HGHUDO )LQDQFLDO 0DQDJHPHQW ,PSURYHPHQW $FW RI 4<<9
*HQHUDO $FFRXQWLQJ 2IILFH *RYHUQPHQW $XGLWLQJ 6WDQGDUGV




            &5,0,1$/ $1' &,9,/ ,19(67,*$7,9( $87+25,7,(6
7LWOH 8                    8QLWHG 6WDWHV &RGH/ VHFWLRQ 885D+7,
7LWOH 4;                   8QLWHG 6WDWHV &RGH/ VHFWLRQV RQ FULPH DQG FULPLQDO
                           SURFHGXUHV DV WKH\ SHUWDLQ WR 2,*·V RYHUVLJKW RI GHSDUWPHQWDO
                           SURJUDPV DQG HPSOR\HH PLVFRQGXFW
7LWOH 64                   8QLWHG 6WDWHV &RGH/ VHFWLRQ 6:5< HW VHT1/ WKH )DOVH &ODLPV $FW
I~SPECroH GE~EHAL




UNITED STATES INTERNATIONAL TRADE CO MMISSIO N

                          WASHINGTON, D.C. 20436




  October 30, 2000



 TO: THE COMMISSION AND THE UNITED STATES CONGRESS

 I hereby submit this Semiannual Report: April l-Septernber 30 , 2000, which
 summarizes the major activiti es and accomplishments of the Office of Inspector
 General (OIG), U.S. International Trade Commission (Commissio n), The
 submission of this report is in accordance with the Inspector General Act of 1978,
 as amended (IG Act), Section 5 of the IG Act requir es that the Chairma n transm it
 this report to the appropriate committees or subcom mittees of the Co ngress
 within 30 days of its receipt.

 During this repor ting period, our office comp leted two audits and one inspection
 of the Commission 's progra ms and operations. The audits were Evaluation of
 Personnel/Payroll and Financial Services Provided to the Commission by the
 Department of the Interior and Review of the Commission's Information
 Resources Management Function. The inspection was on the Independent
 Evaluation ofEDIS 1/ (Review ofBusiness Case and Assessment ofCost-Benefit
 Analysis), As a result, OIG has made several recommendations and suggestions
 to the Commission for program improvements. In addition, one audit which had
 outstanding recommendations was closed during this reporting period,

 I appreciate the support of all Commission employees in achieving the
 accomplishments set forth in this report.



                                                   /) ~
                                                 L-/'
                                                    ~  ~
                                                Dev J agadesa n
                                                Acting Inspector Genera l
                                                                     ig
                                             2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                           7$%/( 2) &217(176

                                                                                                                                             3DJH

&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                                  4
 +XPDQ &DSLWDO 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           4
 3HUIRUPDQFH %DVHG 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               5
 5HGHVLJQLQJ %XVLQHVV 3URFHVVHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         6
 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                 7
 ,QIRUPDWLRQ 6HFXULW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               8

&200,66,21 352),/( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                          :

7+( 2)),&( 2) ,163(&725 *(1(5$/ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                 <

$8',76 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   43
 $XGLW 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           43
 6XPPDU\ RI 6LJQLILFDQW $XGLWV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         44
   (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
     &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI ,QWHULRU/ 2,*0$5037033 +-XO\ 58/ 5333, 1 1 1                                                                  44
   5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
     2,*0$5034033 +6HSWHPEHU 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                 46
 $XGLW )ROORZ08S 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           48
   $XGLW RI 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<; DQG 4<<</
     $XGLW 5HSRUW/ 2,*0$5036033 +0DUFK 57/ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                           48

,163(&7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            4:
  ,QVSHFWLRQ 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               4:
  6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           4:
    ,QGHSHQGHQW (YDOXDWLRQ RI (',6 ,, +5HYLHZ RI %XVLQHVV &DVH DQG $VVHVVPHQW
      RI &RVW0%HQHILW $QDO\VLV,/ ,QVSHFWLRQ 5HSRUW/ 2,*0,5036033
      +6HSWHPEHU 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                   4:

,19(67,*$7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<
6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<




                                                                          L
                                                                 ig
                                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                           7$%/( 2) &217(1760&RQWLQXHG

                                                                                                                                       3DJH

27+(5 $&7,9,7,(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            53
 5HJXODWRU\ 5HYLHZ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1      53
 *HQHUDO $FFRXQWLQJ 2IILFH +*$2, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                    53
 /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   54

5(3257,1* 5(48,5(0(176 ,1'(; 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 56

7$%/( 4= 5(32576 :,7+ 48(67,21(' &2676 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 57

7$%/( 5= 5(32576 :,7+ 5(&200(1'$7,216 7+$7 )81'6 %( 387
 72 %(77(5 86( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 58

*/266$5< 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 59




                                                                      LL
                                          ig
                            2FWREHU 5333 6HPL$QQXDO 5HSRUW




                      &200,66,21·6 723
                   0$1$*(0(17 &+$//(1*(6
7KLV VHFWLRQ RI WKH VHPLDQQXDO UHSRUW KDV EHHQ DGGHG LQ UHVSRQVH WR ILQGLQJV SUHVHQWHG LQ
WKH *$2 UHSRUW ´9LHZV RQ 6HPLDQQXDO 5HSRUWLQJ/µ *$22$,0'²<<²536 +$XJXVW 4<<<,1
*$2 IRXQG WKDW FRQJUHVVLRQDO VWDII DV ZHOO DV PDQDJHPHQW VWDII UHFRPPHQGHG ,QVSHFWRUV
*HQHUDO VHPLDQQXDO UHSRUWV SODFH DGGLWLRQDO HPSKDVLV RQ LGHQWLI\LQJ WRS PDQDJHPHQW
FKDOOHQJHV DQG UHSRUW RQ DFWLRQV WDNHQ E\ DJHQF\ PDQDJHPHQW WR LPSOHPHQW 2IILFH RI
,QVSHFWRU *HQHUDO +2,*, UHFRPPHQGDWLRQV1
2XWOLQHG EHORZ DUH WKH ´7RS )LYH 0DQDJHPHQW &KDOOHQJHVµ IDFLQJ WKH ,QWHUQDWLRQDO 7UDGH
&RPPLVVLRQ +&RPPLVVLRQ, DV LGHQWLILHG E\ WKH 2,*1 7KURXJK DXGLWV/ LQVSHFWLRQV DQG RWKHU
DVVLVWDQFH/ WKH 2,* KDV EHHQ SUR0DFWLYHO\ KHOSLQJ WKH &RPPLVVLRQ LQ DGGUHVVLQJ WKHVH
FKDOOHQJHV1 5HFHQW 2,* DFWLYLWLHV UHODWLQJ WR HDFK PDQDJHPHQW FKDOOHQJH DUH VXPPDUL]HG
EHORZ1



                                     41 +XPDQ &DSLWDO 0DQDJHPHQW



+XPDQ FDSLWDO LV WKH DJHQF\·V ODUJHVW UHVRXUFH DQG LWV HIIHFWLYH PDQDJHPHQW SURYLGHV D
FRQWLQXRXV FKDOOHQJH IRU WKH &RPPLVVLRQ1 %HFDXVH RI WKH &RPPLVVLRQ·V XQLTXH PLVVLRQ DQG
IXQFWLRQV/ PDQ\ H[WHUQDO IDFWRUV DIIHFW WKH &RPPLVVLRQ·V ZRUNORDG1 $GGLWLRQDOO\/ WKH 4<<7
DPHQGPHQWV WR WKH DQWLGXPSLQJ DQG FRXQWHUYDLOLQJ GXW\ ODZV KDYH LQFUHDVHG WKH
&RPPLVVLRQ·V ZRUNORDG1 $GHTXDWHO\ SUHGLFWLQJ DQG DOLJQLQJ KXPDQ FDSLWDO UHVRXUFHV WR
DGGUHVV WKH &RPPLVVLRQ·V ZRUNORDG SURYLGHV D VLJQLILFDQW UHVRXUFH PDQDJHPHQW
FKDOOHQJH1 $OVR/ )HGHUDO JRYHUQPHQW HPSOR\PHQW VWDWLVWLFV LQGLFDWH WKH IHGHUDO
JRYHUQPHQW LV KHDGLQJ WRZDUGV D KXPDQ FDSLWDO FULVLV EHFDXVH RI WKH VLJQLILFDQW QXPEHU
RI HPSOR\HHV EHFRPLQJ HOLJLEOH IRU UHWLUHPHQW DQG VLPXOWDQHRXV UHFUXLWPHQW FKDOOHQJHV LQ
D FRPSHWLWLYH MRE PDUNHW1
7KH 2,* SURYLGHG D PDQDJHPHQW UHSRUW WR WKH &RPPLVVLRQ DQDO\]LQJ FXUUHQW ZRUNIRUFH
WUHQGV1 7KH 2,* DQDO\VLV VKRZHG WKDW WKH &RPPLVVLRQ IDFHV WKH VDPH FKDOOHQJHV DV WKH
RWKHU IHGHUDO DJHQFLHV LQ WKLV DUHD1 0RUH VSHFLILFDOO\/ QHDUO\ D WKLUG RI WKH &RPPLVVLRQ·V
ZRUNIRUFH ZLOO EH HOLJLEOH IRU UHJXODU UHWLUHPHQW E\ WKH \HDU 53381 ,QIRUPDWLRQ IURP WKLV
DQDO\VLV ZLOO IRUP WKH EDVLV IRU IXWXUH UHYLHZV WKDW ZLOO SURYLGH DGGLWLRQDO DVVLVWDQFH WR WKH
&RPPLVVLRQ LQ WKLV DUHD1

                                              4
                                        ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                              51 3HUIRUPDQFH %DVHG 0DQDJHPHQW




7KH &RPPLVVLRQ IDFHV WKH FKDOOHQJH RI VXFFHVVIXOO\ LPSOHPHQWLQJ SHUIRUPDQFH EDVHG
PDQDJHPHQW1 0HHWLQJ WKLV FKDOOHQJH UHTXLUHV WKH &RPPLVVLRQ WR FROOHFW DFFXUDWH RXWFRPH
GDWD/ PHDVXUH SURJUHVV/ DQG PDNH QHFHVVDU\ SURJUDPPDWLF FKDQJHV1 7KH &RPPLVVLRQ
QHHGV WR DOLJQ WKH EXGJHW IRUPXODWLRQ SURFHVV ZLWK LWV VWUDWHJLF SODQ> DQG PDNH EXGJHWDU\
GHFLVLRQV LQ WKH FRQWH[W RI LWV VWUDWHJLF SODQ1 7KH &RPPLVVLRQ DOVR QHHGV WR FRQWLQXH WR
LPSURYH PDQDJHPHQW HIIHFWLYHQHVV WKURXJK JUHDWHU DXWRPDWLRQ DQG LQWHJUDWLRQ RI LWV
EXGJHW/ SURFXUHPHQW/ DVVHW PDQDJHPHQW/ DQG RWKHU ILQDQFLDO PDQDJHPHQW SURFHVVHV1
$GGLWLRQDOO\/ WKH &RPPLVVLRQ·V 6WUDWHJLF 3ODQ QHHGV WR LQFRUSRUDWH PRUH IXOO\ WKH
UHTXLUHPHQWV IRU LQIRUPDWLRQ UHVRXUFHV PDQDJHPHQW1
'XULQJ WKLV SHULRG/ 2,* FRQGXFWHG DQ DXGLW RI WKH &RPPLVVLRQ·V SHUVRQQHO2SD\UROO DQG
ILQDQFLDO PDQDJHPHQW V\VWHPV1 5HFRPPHQGDWLRQV IURP WKLV DXGLW/ ZKHQ LPSOHPHQWHG/
DUH H[SHFWHG WR LPSURYH PDQDJHPHQW HIIHFWLYHQHVV WKURXJK JUHDWHU DXWRPDWLRQ DQG
LQWHJUDWLRQ RI DGPLQLVWUDWLYH V\VWHPV DQG WKURXJK WKH LPSURYHG IORZ RI SHUVRQQHO DQG
ILQDQFLDO PDQDJHPHQW LQIRUPDWLRQ WR WKH &RPPLVVLRQ·V PDQDJHUV1




                                           5
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                    61 5HGHVLJQLQJ %XVLQHVV 3URFHVVHV




7KH &RPPLVVLRQ·V FXUUHQW EXVLQHVV SURFHVVHV DUH VWLOO ODUJHO\ SDSHU0FHQWULF1 +RZHYHU/
DGYDQFHV LQ LQIRUPDWLRQ WHFKQRORJ\ RIIHU WKH SURPLVH RI DXWRPDWHG SURFHVVHV WKDW FRXOG
UHGXFH SDSHUZRUN DQG SURYLGH JUHDWHU HFRQRP\ DQG HIILFLHQF\ RI RSHUDWLRQ1 ,Q DGGLWLRQ/ WKH
*RYHUQPHQW 3DSHUZRUN (OLPLQDWLRQ $FW +*3($, RIIHUV DQ LQFHQWLYH IRU UHGXFLQJ
SDSHUZRUN E\ DFFRUGLQJ HOHFWURQLF UHFRUGV DQG VLJQDWXUHV WKH VDPH OHJDO VWDWXV DV SDSHU1
7KH &RPPLVVLRQ WKXV KDV DQ RSSRUWXQLW\ WR UHYLVH DQG LPSURYH HIILFLHQF\ LQ LWV FXUUHQW
EXVLQHVV SURFHVVHV WKURXJK JUHDWHU UHOLDQFH RQ HOHFWURQLF ILOLQJ/ VWRUDJH/ UHWULHYDO DQG
GLVVHPLQDWLRQ RI LQIRUPDWLRQ1 7KLV LV SDUWLFXODUO\ WUXH IRU LPSURYLQJ HIILFLHQF\ LQ LWV FRUH
EXVLQHVV SURFHVV RI FRQGXFWLQJ LPSRUW LQYHVWLJDWLRQV LQYROYLQJ UHFHLSW IURP/ DQG
WUDQVPLVVLRQ WR SDUWLHV DQG RWKHUV RI VXEVWDQWLDO DPRXQWV RI SDSHUZRUN1
'XULQJ WKLV SHULRG/ 2,* FRQGXFWHG DQ LQVSHFWLRQ RI WKH FRVW0EHQHILW DQDO\VLV WKDW ZDV
SHUIRUPHG WR VXSSRUW D GHFLVLRQ IRU UHSODFLQJ WKH &RPPLVVLRQ·V (OHFWURQLF 'RFXPHQW
,PDJLQJ 6\VWHP +(',6,1 2QH RI WKH SULQFLSDO VXJJHVWLRQV IURP WKLV LQVSHFWLRQ ZDV WKH QHHG
WR FRQVLGHU DQ HOHFWURQLF GRFXPHQW VXEPLVVLRQ DQG KDQGOLQJ V\VWHP PRUH IXOO\ FRPSOLDQW
ZLWK *3($1




                                             6
                                         ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                            71 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW




7KH UDSLG HYROXWLRQ RI LQIRUPDWLRQ WHFKQRORJ\/ SDUWLFXODUO\ LQ WKH DUHDV RI QHWZRUNLQJ DQG
WHOHFRPPXQLFDWLRQV/ SUHVHQWV WKH &RPPLVVLRQ ZLWK HQRUPRXV RSSRUWXQLWLHV IRU
PRGHUQL]LQJ LWV LQIRUPDWLRQ DQG PDQDJHPHQW V\VWHPV1 7KH LQWURGXFWLRQ RI DGGLWLRQDO
DXWRPDWLRQ LQWR WKH &RPPLVVLRQ·V EXVLQHVV SURFHVVHV ZLOO SURPRWH JUHDWHU HFRQRP\ DQG
HIILFLHQF\ ZKLOH IUHHLQJ XS KXPDQ FDSLWDO IRU KLJKHU OHYHO DFWLYLWLHV VXFK DV SODQQLQJ/
HYDOXDWLRQ DQG UHVHDUFK1 /LNHZLVH/ WKH DSSOLFDWLRQ RI PRGHUQ ZHE0EDVHG LQIRUPDWLRQ
DUFKLWHFWXUHV FDQ WUDQVIRUP WKH ZD\ WKH &RPPLVVLRQ LQWHUDFWV ZLWK LWV FXVWRPHUV DQG WKH
SXEOLF1
7KH FKDOOHQJH IRU WKH &RPPLVVLRQ LV WR SURYLGH WKH OHDGHUVKLS WR SURPRWH D VKDUHG YLVLRQ
RI FRQVWDQW LPSURYHPHQW LQ LWV EXVLQHVV V\VWHPV WKURXJK WKH DSSOLFDWLRQ RI PRGHUQ
LQIRUPDWLRQ WHFKQRORJ\1
7KH &RQJUHVV KDV UHFRJQL]HG WKH SULRULW\ RI LQIRUPDWLRQ WHFKQRORJ\ LQ JRYHUQPHQW WKURXJK
OHJLVODWLRQ VXFK DV WKH &OLQJHU0&RKHQ $FW RI 4<<91 'XULQJ WKLV UHSRUWLQJ SHULRG/ 2,*
FRQGXFWHG DQ DXGLW RI WKH &RPPLVVLRQ·V FRPSOLDQFH ZLWK WKH &OLQJHU0&RKHQ $FW1 $V D UHVXOW
RI WKLV DXGLW/ ZH PDGH RQH RI RXU PRVW LPSRUWDQW UHFRPPHQGDWLRQV WR WKH &RPPLVVLRQ/
QDPHO\/ WKDW WKH &RPPLVVLRQ DSSRLQW D &KLHI ,QIRUPDWLRQ 2IILFHU UHSRUWLQJ LQGHSHQGHQWO\
DQG GLUHFWO\ WR WKH &KDLUPDQ1 :H PDGH WKLV UHFRPPHQGDWLRQ GHVSLWH RXU UHFRJQLWLRQ WKDW
LPSOHPHQWDWLRQ RI WKLV UHFRPPHQGDWLRQ ZLOO SUHVHQW WKH &RPPLVVLRQ ZLWK D VLJQLILFDQW
UHFUXLWLQJ DQG EXGJHW FKDOOHQJH1 +RZHYHU/ RXU DXGLW UHYHDOHG WKDW VXFK D SRVLWLRQ FRXOG
SURGXFH WUHPHQGRXV EHQHILWV WR WKH &RPPLVVLRQ LQ WKH DUHD RI LQIRUPDWLRQ UHVRXUFHV
PDQDJHPHQW1




                                            7
                                         ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                    81 ,QIRUPDWLRQ 6HFXULW\




0DQDJLQJ WKH VHFXULW\ ULVNV DVVRFLDWHG ZLWK WKH &RPPLVVLRQ·V JURZLQJ UHOLDQFH RQ
LQIRUPDWLRQ WHFKQRORJ\ LV D FRQWLQXLQJ FKDOOHQJH1 ,Q SDUWLFXODU/ WKH &RPPLVVLRQ/ OLNH PDQ\
IHGHUDO DJHQFLHV DQG SULYDWH RUJDQL]DWLRQV/ QHHGV WR ILQG HIILFLHQW ZD\V WR HQVXUH WKDW
LQIRUPDWLRQ VHFXULW\ ULVNV DIIHFWLQJ &RPPLVVLRQ RSHUDWLRQV DUH DVVHVVHG IXOO\ DQG WR
LPSOHPHQW DSSURSULDWH FRQWUROV WR PLWLJDWH WKHVH ULVNV1
7R WKLV HQG/ WKH 2,* UHFHQWO\ SHUIRUPHG VHYHUDO LQVSHFWLRQV DQG LV DFWLYHO\ HQJDJHG LQ
FRQWLQXRXV UHYLHZ RI WKLV DUHD1




                                            8
                                                                                       ig
                                                            2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                                 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                                                                     &KDLUPDQ
                                                                               &200,66,21




    2IILFH RI WKH                                                                                $GPLQLVWUDWLRQ         2IILFH RI WKH              2IILFH RI          2IILFH RI
                           2SHUDWLRQV                                       2IILFH RI
   $GPLQLVWUDWLYH                                   2IILFH RI WKH                                   2IILFH RI             *HQHUDO                 ,QVSHFWRU            (TXDO
                           2IILFH RI WKH                                    ([WHUQDO
    /DZ -XGJHV                                       6HFUHWDU\                                    WKH 'LUHFWRU           &RXQVHO                   *HQHUDO           (PSOR\PHQW
                             'LUHFWRU                                       5HODWLRQV                                                                                2SSRUWXQLW\
                                                                         7UDGH 5HPHG\
                                                                         $VVLVWDQFH 2IILFH

                                                                                                                                             (PSOR\HH
                                                                                                                                            'HYHORSPHQW



                          2IILFH RI                                     2IILFH RI                   2IILFH RI                                                    2IILFH RI
   2IILFH RI                                       2IILFH RI                                                             2IILFH RI            2IILFH RI
                         ,QGXVWULHV                                   ,QIRUPDWLRQ                   )LQDQFH                                                     )DFLOLWLHV
  (FRQRPLFV                                     ,QYHVWLJDWLRQV                                                          3HUVRQQHO            3XEOLVKLQJ
                                                                        6HUYLFHV                                                                               0DQDJHPHQW




                         2IILFH RI
                       7DULII $IIDLUV              2IILFH RI
                        DQG 7UDGH               8QIDLU ,PSRUW
                       $JUHHPHQWV               ,QYHVWLJDWLRQV



%XGJHW &RPPLWWHH                                                                                       ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WHHULQJ &RPPLWWHH +,506&,
   $XWKRULW\= $GP1 2UGHU 33039/ GDWHG :259233                                                             $XWKRULW\= $GP1 2UGHU 3303;/ GDWHG ;258233

                                                                                                       ,QIRUPDWLRQ 6HFXULW\ &RPPLWWHH +,1)26(&,
'LUHFWLYHV 5HYLHZ &RPPLWWHH                                                                               $XWKRULW\= 'LUHFWLYH 467813/ GDWHG :2642<3
    $XWKRULW\= &2:4080337/ GDWHG :2442<:
                                                                                                       /DERU00DQDJHPHQW 2FFXSDWLRQDO 6DIHW\ DQG +HDOWK &RPPLWWHH
'RFXPHQW ,PDJLQJ 2YHUVLJKW &RPPLWWHH +',2&,                                                              $XWKRULW\= $GP1 2UGHU <;043/ GDWHG <2492<;/ $GP1 2UGHU <<036/
   $XWKRULW\= $GP1 2UGHU <9039/ GDWHG 62482<9                                                            GDWHG 5282<</ DQG $GP1 2UGHU <<03;/ GDWHG <25<2<<

([HFXWLYH 5HVRXUFHV %RDUG +(5%,                                                                        /DERU00DQDJHPHQW 3DUWQHUVKLS &RXQFLO
   $XWKRULW\= $GP1 2UGHU 3303:/ GDWHG ;255233                                                            $XWKRULW\= $GP1 2UGHU <<038/ GDWHG 62582<<

,QFHQWLYH $ZDUGV &RPPLWWHH +,$&,                                                                       6WUDWHJLF 3ODQQLQJ &RPPLWWHH +63&,
    $XWKRULW\= $GP1 2UGHU <505:/ GDWHG :252<5 DQG $GP1 2UGHU <:035/ GDWHG 432482<9                        $XWKRULW\= $GP1 2UGHU <;038/ GDWHG 6282<;




                                                                                             9
                                        ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                       &200,66,21 352),/(
                         KWWS=22ZZZ1XVLWF1JRY
7KH &RPPLVVLRQ LV DQ LQGHSHQGHQW/ TXDVL²MXGLFLDO/ QRQSDUWLVDQ )HGHUDO DJHQF\
HVWDEOLVKHG E\ &RQJUHVV ZLWK EURDG LQYHVWLJDWLYH SRZHUV RQ PDWWHUV RI WUDGH1 7KH PLVVLRQ
RI WKH &RPPLVVLRQ LV WZRIROG= DGPLQLVWHU 8161 WUDGH UHPHG\ ODZV LQ D IDLU DQG REMHFWLYH
PDQQHU> DQG SURYLGH WKH 3UHVLGHQW/ 8161 7UDGH 5HSUHVHQWDWLYH/ DQG WKH &RQJUHVV ZLWK
LQGHSHQGHQW/ TXDOLW\ DGYLFH DQG LQIRUPDWLRQ RQ PDWWHUV RI LQWHUQDWLRQDO WUDGH DQG
FRPSHWLWLYHQHVV1 0DMRU &RPPLVVLRQ DFWLYLWLHV LQFOXGH=
       P ,PSRUW ,QMXU\ ,QYHVWLJDWLRQV²7KH &RPPLVVLRQ PDNHV GHWHUPLQDWLRQV LQ D
         YDULHW\ RI LPSRUW LQMXU\ LQYHVWLJDWLRQV/ SULPDULO\ DQWLGXPSLQJ DQG
         FRXQWHUYDLOLQJ GXW\ +$'2&9', LQYHVWLJDWLRQV FRQFHUQLQJ WKH HIIHFWV RI
         XQIDLUO\ WUDGHG LPSRUWV RQ D 8161 LQGXVWU\1
       P ,QWHOOHFWXDO 3URSHUW\²%DVHG ,QYHVWLJDWLRQV²7KH &RPPLVVLRQ
         DGMXGLFDWHV FRPSODLQWV EURXJKW E\ GRPHVWLF LQGXVWULHV XQGHU VHFWLRQ 66: RI
         WKH 7DULII $FW RI 4<63 WKDW DOOHJH LQIULQJHPHQW RI 8161 LQWHOOHFWXDO SURSHUW\
         ULJKWV DQG RWKHU XQIDLU PHWKRGV RI FRPSHWLWLRQ E\ LPSRUWHG JRRGV1
       P 5HVHDUFK²7KH &RPPLVVLRQ·V UHVHDUFK SURJUDP FRQVLVWV RI LWV SUREDEOH
         HFRQRPLF HIIHFWV LQYHVWLJDWLRQV XQGHU VHFWLRQ 464 RI WKH 7DULII $FW RI 4<63>
         DQDO\VLV RI WUDGH DQG FRPSHWLWLYHQHVV LVVXHV XQGHU VHFWLRQ 665> DQG UROH DV D
         ´WKLQN WDQNµ RQ LQWHUQDWLRQDO WUDGH/ H[SORULQJ DQG SURYLGLQJ LQGHSHQGHQW
         DVVHVVPHQWV RQ D ZLGH UDQJH RI HPHUJLQJ WUDGH LVVXHV1
       P 7UDGH ,QIRUPDWLRQ 6HUYLFHV²7KH &RPPLVVLRQ·V WUDGH LQIRUPDWLRQ VHUYLFHV
         LQFOXGH VXFK DFWLYLWLHV DV WUDGH UHPHG\ DVVLVWDQFH> OLEUDU\ VHUYLFHV>
         OHJLVODWLYH UHSRUWV> PDLQWHQDQFH RI WKH +DUPRQL]HG 7DULII 6FKHGXOH> 6FKHGXOH
         ;;> 8161 6FKHGXOH RI 6HUYLFHV &RPPLWPHQWV XQGHU WKH *HQHUDO $JUHHPHQW
         RQ 7DULIIV DQG 7UDGH2:RUOG 7UDGH 2UJDQL]DWLRQ> SUHSDUDWLRQ RI 8161
         VXEPLVVLRQV WR WKH ,QWHJUDWHG 'DWDEDVH RI WKH :RUOG 7UDGH 2UJDQL]DWLRQ>
         DQG FHUWDLQ RWKHU LQIRUPDWLRQ JDWKHULQJ/ SURFHVVLQJ/ DQG GLVVHPLQDWLRQ
         DFWLYLWLHV1
       P 7UDGH 3ROLF\ 6XSSRUW²7KH &RPPLVVLRQ VXSSRUWV WKH IRUPXODWLRQ RI 8161
         WUDGH SROLF\/ SURYLGLQJ REMHFWLYH LQSXW WR ERWK WKH ([HFXWLYH %UDQFK DQG WKH
         &RQJUHVV RQ WKH EDVLV RI WKH GLVWLQFWLYH H[SHUWLVH RI LWV VWDII1




                                           :
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




7KH &RPPLVVLRQ KDV VL[ &RPPLVVLRQHUV/ DSSRLQWHG E\ WKH 3UHVLGHQW DQG FRQILUPHG E\ WKH
6HQDWH/ ZKR VHUYH RQH WHUP RI QLQH \HDUV/ XQOHVV DSSRLQWHG WR ILOO DQ XQH[SLUHG WHUP1 1R
PRUH WKDQ WKUHH &RPPLVVLRQHUV PD\ EH RI WKH VDPH SROLWLFDO SDUW\1 7KH FXUUHQW
&RPPLVVLRQHUV DUH 6WHSKHQ .RSODQ/ 'HDQQD 7DQQHU 2NXQ/ /\QQ 01 %UDJJ/ 0DUFLD (1
0LOOHU/ -HQQLIHU $1 +LOOPDQ/ DQG 7KHOPD -1 $VNH\1
7KH &KDLUPDQ DQG 9LFH &KDLUPDQ DUH GHVLJQDWHG E\ WKH 3UHVLGHQW DQG VHUYH D WZR²\HDU
VWDWXWRU\ WHUP1 7KH &KDLUPDQ LV UHVSRQVLEOH/ ZLWKLQ VWDWXWRU\ OLPLWV/ IRU WKH
DGPLQLVWUDWLYH IXQFWLRQV RI WKH &RPPLVVLRQ1
'XULQJ WKLV VHPLDQQXDO SHULRG WKHUH ZDV D FKDQJH LQ WKH &KDLUPDQVKLS DQG
9LFH0&KDLUPDQVKLS GXH WR WKH H[SLUDWLRQ RI WKH SUHYLRXV &KDLUPDQ DQG 9LFH0&KDLUPDQ·V
WHUPV1 7KH 3UHVLGHQW GHVLJQDWHG 6WHSKHQ .RSODQ DV &KDLUPDQ DQG 'HDQQD 7DQQHU 2NXQ
DV 9LFH0&KDLUPDQ1 7KHLU WHUPV EHJDQ RQ -XQH 4:/ 5333 DQG H[SLUH RQ -XQH 49/ 53351
,Q )LVFDO <HDU +)<, 5333/ WKH &RPPLVVLRQ KDG '7:15 PLOOLRQ LQ DYDLODEOH IXQGV +'7718
PLOOLRQ DSSURSULDWLRQ, DQG D VWDIILQJ SODQ IRU 6<318 SHUPDQHQW SRVLWLRQV DQG 63 WHUP
SRVLWLRQV1 $OO RI LWV HPSOR\HHV DUH ORFDWHG LQ RQH EXLOGLQJ DW 833 ( 6WUHHW/ 6:/ :DVKLQJWRQ/
'&1




 6WHSKHQ .RSODQ/ &KDLUPDQ                           'HDQQD 7DQQHU 2NXQ/ 9LFH &KDLUPDQ




                                             ;
                                               ig
                                   2FWREHU 5333 6HPL$QQXDO 5HSRUW




              7+( 2)),&( 2) ,163(&725 *(1(5$/
                     KWWS=22ZZZ1XVLWF1JRY2RLJ
7KH &RPPLVVLRQ HVWDEOLVKHG WKH 2,* SXUVXDQW WR WKH 4<;; DPHQGPHQWV WR WKH ,QVSHFWRU
*HQHUDO $FW1 7KH ,QVSHFWRU *HQHUDO UHSRUWV GLUHFWO\ WR WKH &KDLUPDQ1 7KH ,QVSHFWRU
*HQHUDO LV UHVSRQVLEOH IRU GLUHFWLQJ DQG FDUU\LQJ RXW DXGLWV/ LQYHVWLJDWLRQV/ DQG LQVSHFWLRQV
UHODWLQJ WR &RPPLVVLRQ SURJUDPV DQG RSHUDWLRQV1 7KH ,QVSHFWRU *HQHUDO DOVR FRPPHQWV
DQG SURYLGHV UHFRPPHQGDWLRQV RQ SURSRVHG OHJLVODWLRQ/ UHJXODWLRQV/ DQG SURFHGXUHV DV WR
WKHLU HFRQRP\/ HIILFLHQF\ DQG HIIHFWLYHQHVV1

,Q )< 5333 WKH 2,* ZDV DOORFDWHG 618 VWDII \HDUV1 7KLV SURYLGHG IRU WZR IXOO²WLPH +,QVSHFWRU
*HQHUDO DQG D VWDII DVVLVWDQW, DQG WZR SDUW²WLPH +DWWRUQH\²DGYLVRU DQG DQ DXGLWRU,
SRVLWLRQV1

                                2IILFH RI ,QVSHFWRU *HQHUDO= 2UJDQL]DWLRQ
  )XOO0WLPH

          ,QVSHFWRU *HQHUDO




              6WDII $VVLVWDQW

                                                               3DUW0WLPH


                                            $WWRUQH\ $GYLVRU               $XGLWRU



7KH &RPPLVVLRQ DOVR DOORFDWHG ':8/333 IRU 2,* DXGLW DQG UHYLHZ VHUYLFHV IRU )< 53331




$V SDUW RI WKH &RPPLVVLRQ·V VXPPHU VWXGHQW SURJUDP/
&KU\V $1 &DUH\ MRLQHG WKH 2,* VWDII RQ -XQH 4</ 5333/
DQG ZRUNHG WKURXJK $XJXVW 58/ 53331




                                                  <
                                       ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                     $8',76

                               $XGLW 5HSRUW /LVW
7ZR DXGLW UHSRUWV ZHUH LVVXHG GXULQJ WKLV SHULRG1 7KH\ ZHUH=
      P (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
        &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH ,QWHULRU> DQG
      P 5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ1
$V RI 6HSWHPEHU 63/ 5333/ RQJRLQJ DXGLWV LQFOXGHG=
      P (YDOXDWLRQ RI 86,7& 5HFRUGV 0DQDJHPHQW> DQG
      P (YDOXDWLRQ RI 86,7& (0)2,$ ,PSOHPHQWDWLRQ
3HQGLQJ DFWLRQV RQ RQH DXGLW UHSRUW ZHUH FRPSOHWHG DQG DUH SUHVHQWHG RQ SDJH 481




                        8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                          43
                                         ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                           6XPPDU\ RI 6LJQLILFDQW $XGLWV

      P (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG
        )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
        &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH
        ,QWHULRU/ 2,*²$5²37²33 +-XO\ 58/ 5333,
        KWWS=22ZZZ1XVLWF1JRY2RLJ22,*²$5²37²331SGI




6LQFH 4<<9/ WKH &RPPLVVLRQ KDV EHHQ XVLQJ SHUVRQQHO2SD\UROO DQG ILQDQFLDO PDQDJHPHQW
VHUYLFHV SURYLGHG E\ WKH 1DWLRQDO %XVLQHVV &HQWHU +1%&, RI WKH 'HSDUWPHQW RI WKH ,QWHULRU
+'2,,1 1%& LV SURYLGLQJ SHUVRQQHO SD\UROO VHUYLFHV WR WKH &RPPLVVLRQ WKURXJK LWV )HGHUDO
3HUVRQQHO 3D\UROO 6\VWHP +)336,1 1%& LV SURYLGLQJ ILQDQFLDO PDQDJHPHQW VHUYLFHV WR WKH
&RPPLVVLRQ WKURXJK WKH )HGHUDO )LQDQFLDO 6\VWHP +))6,1
7KH REMHFWLYH RI WKLV DXGLW ZDV WR LGHQWLI\ DQG HYDOXDWH VHUYLFHV DYDLODEOH IURP '2, DQG
PDNH DQ\ UHFRPPHQGDWLRQV IRU LPSURYHPHQWV LQ WKH &RPPLVVLRQ·V XWLOL]DWLRQ RI WKHVH
VHUYLFHV DV ZHOO DV IRU QHZ VHUYLFHV WKH &RPPLVVLRQ VKRXOG FRQVLGHU DGRSWLQJ1
%DVHG RQ RXU DXGLW ZH IRXQG WKDW WKH &RPPLVVLRQ ZDV QRW XVLQJ FXUUHQW VHUYLFHV RIIHUHG
E\ 1%& HIIHFWLYHO\1 ,Q WKH FDVH RI )336/ ZH IRXQG WKDW WKH &RPPLVVLRQ KDG QRW EHHQ XVLQJ
VRPH )336 WDVN DXWRPDWLRQ IHDWXUHV1 7KLV UHVXOWHG LQ RYHU UHOLDQFH RQ WLPH0FRQVXPLQJ
PDQXDO SURFHGXUHV FKDUDFWHUL]HG E\ GRXEOH DQG WULSOH HQWU\ RI WKH VDPH GDWD1 $OVR/ WKH
&RPPLVVLRQ ZDV QRW WDNLQJ DGYDQWDJH RI WKH UHFHQWO\ GHYHORSHG )336 'DWD 0DUW DV D
VRXUFH RI WLPHO\ DQG H[WHQVLYH SHUVRQQHO PDQDJHPHQW LQIRUPDWLRQ1
,Q WKH FDVH RI ))6/ ZH IRXQG WKH &RPPLVVLRQ ZDV QRW WDNLQJ DGYDQWDJH RI PDQ\ ))6 WDVN
DXWRPDWLRQ IHDWXUHV1 7KHUH KDG DOVR EHHQ LQVXIILFLHQW DWWHQWLRQ JLYHQ WR WKH QHHG IRU
LQWHJUDWLRQ RI WKH &RPPLVVLRQ·V ILQDQFLDO V\VWHPV1 $Q H[DPSOH ZDV WKH XVH RI DQ
DXWRPDWHG SURFXUHPHQW V\VWHP WKDW KDG QR LQWHUIDFH ZLWK ))61 $OVR/ WKHUH ZDV
LQVXIILFLHQW FRQWURO EHLQJ H[HUFLVHG RYHU RSWLRQDO WHFKQLFDO VHUYLFHV SURYLGHG E\ 1%&/ DQG
WLPHO\ DQG UHOHYDQW LQIRUPDWLRQ UHSRUWLQJ WR WKH &RPPLVVLRQ·V PDQDJHUV ZDV QRW EHLQJ
SHUIRUPHG1
:H IRXQG WKDW WKH &RPPLVVLRQ FRXOG XVH VRPH QHZ RU DGGLWLRQDO VHUYLFHV SURYLGHG E\ '2,1
7KHVH LQFOXGHG DQ RQ0OLQH GDWD PDUW RI SHUVRQQHO LQIRUPDWLRQ/ D GDWD ZDUHKRXVH RI
ILQDQFLDO LQIRUPDWLRQ DQG DQ HPSOR\HH VHOI0VHUYLFH IHDWXUH1 :H DOVR IRXQG WKDW '2, FRXOG
SURYLGH PRUH DVVLVWDQFH LQ PHHWLQJ WKH &RPPLVVLRQ·V UHTXLUHPHQWV IRU GLVVHPLQDWLRQ RI

                                           44
                                          ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




WLPHO\ DQG UHOHYDQW SHUVRQQHO DQG ILQDQFLDO PDQDJHPHQW LQIRUPDWLRQ1 :H UHDFKHG WKLV
FRQFOXVLRQ DIWHU FRQGXFWLQJ D VXUYH\ RI &RPPLVVLRQ PDQDJHUV DQG LQFRUSRUDWLQJ WKHLU
LQIRUPDWLRQ UHTXLUHPHQWV LQWR DQ H[DPSOH RI D SHULRGLF UHSRUW WKDW FRXOG EH JHQHUDWHG E\
'2,1
$Q LPSRUWDQW RXWJURZWK RI WKLV DXGLW ZDV GHYHORSPHQW RI D PHWKRGRORJ\ WR DVVHVV WKH
DGHTXDF\ RI LQWHJUDWLRQ DQG DXWRPDWLRQ RI WKH &RPPLVVLRQ·V ILQDQFLDO PDQDJHPHQW
V\VWHPV1 %DVHG ODUJHO\ RQ WKH UHTXLUHPHQWV VWDWHG LQ 20% &LUFXODU $045:+5HY,/ ZH
GHILQHG WKH IROORZLQJ WKUHH SULQFLSOHV IRU DVVHVVLQJ WKH &RPPLVVLRQ·V ILQDQFLDO V\VWHPV=
       P (OHFWURQLF /LQNDJH 0 6\VWHPV DQG VXEV\VWHPV VKRXOG EH FDSDEOH RI
         HOHFWURQLFDOO\ FRPPXQLFDWLQJ ZLWK HDFK RWKHU ZLWKRXW KXPDQ LQWHUYHQWLRQ1
       P &RPSDWLEOH ,QWHUIDFH 0 'DWD VKRXOG EH FDSDEOH RI EHLQJ SDVVHG IURP RQH
         V\VWHP RU VXEV\VWHP WR DQRWKHU/ DQG EHLQJ DFFHSWHG IRU SURFHVVLQJ1
       P 2QH 7LPH 'DWD (QWU\ 0 'DWD WR EH SURFHVVHG E\ DQ\ SDUW RI WKH )LQDQFLDO
         0DQDJHPHQW 6\VWHP VKRXOG RQO\ KDYH WR EH HQWHUHG RQFH1
%DVHG RQ RXU DXGLW ILQGLQJV ZH RIIHUHG 54 UHFRPPHQGDWLRQV WR WKH &RPPLVVLRQ IRU
LPSURYLQJ LWV FXUUHQW ZRUNLQJ UHODWLRQVKLS ZLWK '2,/ IRU XVLQJ )336 DQG ))6 WR SURYLGH
LQIRUPDWLRQ UHSRUWLQJ WKDW PRUH HIIHFWLYHO\ PHHWV WKH UHTXLUHPHQWV RI &RPPLVVLRQ
PDQDJHUV/ DQG IRU PDNLQJ XVH RI VRPH DGGLWLRQDO )336 DQG ))6 VHUYLFHV FXUUHQWO\
SURYLGHG RU VRRQ WR EH SURYLGHG E\ 1%&1 :H DOVR LGHQWLILHG '6/;69 LQ FRVWV WKDW FRXOG EH XVHG
IRU RWKHU SXUSRVHV LI WKH HPSOR\HH VHOI VHUYLFH IXQFWLRQ ZHUH LPSOHPHQWHG1 :H REWDLQHG
PDQDJHPHQW DJUHHPHQW DQG D SODQ RI DFWLRQ IRU DOO RXU UHFRPPHQGDWLRQV1




                                            45
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




    P 5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ
      5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
      2,*²$5²34²33 +6HSWHPEHU 5</ 5333,
      KWWS=22ZZZ1XVLWF1JRY2RLJ22,*²$5²34²331SGI




7KH &OLQJHU0&RKHQ $FW RI 4<<9 ZDV GHVLJQHG WR LPSURYH LQIRUPDWLRQ UHVRXUFHV
PDQDJHPHQW +,50, LQ IHGHUDO DJHQFLHV1 $PRQJ WKH $FW·V PRVW LPSRUWDQW SURYLVLRQV DUH=
       P $JHQFLHV VKDOO GHVLJQ DQG LPSOHPHQW D SURFHVV IRU PD[LPL]LQJ WKH YDOXH DQG
         DVVHVVLQJ DQG PDQDJLQJ WKH ULVNV RI ,QIRUPDWLRQ 7HFKQRORJ\ +,7,
         DFTXLVLWLRQV1
       P $JHQFLHV VKDOO HVWDEOLVK JRDOV IRU LPSURYLQJ DJHQF\ RSHUDWLRQV DQG GHOLYHU\
         RI VHUYLFHV WR WKH SXEOLF WKURXJK WKH HIIHFWLYH XVH RI ,71
       P $JHQFLHV VKDOO HQVXUH WKDW SHUIRUPDQFH PHDVXUHPHQWV DUH SUHVFULEHG IRU ,7
         XVHG E\ RU WR EH DFTXLUHG E\ WKH DJHQF\1
       P $JHQFLHV VKDOO DQDO\]H WKHLU PLVVLRQV DQG/ EDVHG RQ WKLV DQDO\VLV/ UHYLVH
         DJHQF\ PLVVLRQ0UHODWHG DQG DGPLQLVWUDWLYH SURFHVVHV DV DSSURSULDWH EHIRUH
         PDNLQJ VLJQLILFDQW LQYHVWPHQWV LQ ,7 WKDW VXSSRUWV WKRVH SURFHVVHV1
       P $JHQFLHV VKDOO DSSRLQW D &KLHI ,QIRUPDWLRQ 2IILFHU +&,2, ZKR ZLOO DGYLVH DQG
         DVVLVW WKH DJHQF\ KHDG DQG RWKHU VHQLRU PDQDJHPHQW RIILFLDOV RQ DFTXLVLWLRQ
         RI ,7 DQG WKH PDQDJHPHQW RI LQIRUPDWLRQ UHVRXUFHV +,5, DQG ZKR ZLOO
         SURPRWH WKH HIIHFWLYH DQG HIILFLHQW GHVLJQ RI WKH DJHQF\ ,50 SURFHVVHV1
7KH REMHFWLYHV RI WKLV DXGLW ZHUH WR= +4, GHWHUPLQH ZKDW FKDQJHV/ LI DQ\/ VKRXOG EH PDGH WR
WKH &RPPLVVLRQ·V ,50 IXQFWLRQ WR FRQIRUP WR JXLGDQFH LQ WKH &OLQJHU0&RKHQ $FW/ DQG +5,
UHYLHZ WKH &RPPLVVLRQ·V FXUUHQW RUJDQL]DWLRQ DQG SURFHVVHV IRU ,50 DQG GHWHUPLQH ZKDW
LPSURYHPHQWV/ LI DQ\/ VKRXOG EH PDGH1
:H IRXQG WKDW WKH &RPPLVVLRQ ZDV QRW LQ IXOO FRPSOLDQFH ZLWK WKH &OLQJHU0&RKHQ $FW DQG
LWV DVVRFLDWHG DPHQGPHQWV WR WKH 3DSHUZRUN 5HGXFWLRQ $FW1 :H IRXQG WKDW ,50 DW WKH
&RPPLVVLRQ ZDV IUDJPHQWHG/ ZLWK UHVSRQVLELOLWLHV VSUHDG DFURVV VHYHUDO RIILFHV1 7KLV
FRQWULEXWHG WR DQ XQHYHQ DSSOLFDWLRQ RI UHVRXUFHV DFURVV WKH &RPPLVVLRQ DQG D ODFN RI IRFXV
RQ VXSSRUWLQJ WKH &RPPLVVLRQ DV D ZKROH1 :H DOVR IRXQG WKDW WKH &RPPLVVLRQ·V
,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WHHULQJ &RPPLWWHH +,506&, ZDV QRW SHUIRUPLQJ LWV

                                           46
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




SULPDU\ IXQFWLRQ RI DOLJQLQJ ,7 LQYHVWPHQWV ZLWK WKH &RPPLVVLRQ·V VWUDWHJLF REMHFWLYHV
HIIHFWLYHO\1
%DVHG RQ RXU DXGLW ILQGLQJV ZH PDGH VHYHUDO UHFRPPHQGDWLRQV IRU LPSURYLQJ WKH
&RPPLVVLRQ·V ,50 IXQFWLRQ1 2XU SULPDU\ UHFRPPHQGDWLRQ ZDV WKDW WKH &RPPLVVLRQ
DSSRLQW D &,2 DQG DVVLJQ VXIILFLHQW UHVSRQVLELOLWLHV DQG UHVRXUFHV WR WKLV SRVLWLRQ VR WKDW
WKH &,2 FRXOG SURYLGH XQLILHG GLUHFWLRQ WR WKH &RPPLVVLRQ·V ,501 :H PDGH
UHFRPPHQGDWLRQV IRU= VWUHQJWKHQLQJ WKH ,506&> XSGDWLQJ WKH ,50 6WUDWHJLF 3ODQ>
LPSURYLQJ WKH PDQDJHPHQW RI WKH &RPPLVVLRQ·V ,50 SHUVRQQHO> DQG LPSURYLQJ
LQIRUPDWLRQ VHFXULW\ SODQQLQJ1




                                           47
                                       ig
                         2FWREHU 5333 6HPL$QQXDO 5HSRUW




                         $8',7 )2//2:²83
3HQGLQJ DFWLRQV RQ RQH DXGLW ZHUH FRPSOHWHG1
$XGLW RI WKH 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<; DQG 4<<</ $XGLW
5HSRUW/ 2,*²$5²36²33 +0DUFK 57/ 5333,1 KWWS=22ZZZ1XVLWF1JRY2RLJ2 2,*²$5²36²331SGI1
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ 0DUFK 57/ 53331
%DVHG RQ RXU ILQGLQJV ZH PDGH WKH IROORZLQJ VLJQLILFDQW UHFRPPHQGDWLRQV=
      P 6WDQGDUGL]H WKH IRUP DQG FRQWHQW RI EODQNHW SXUFKDVH DJUHHPHQW FDOO UHFRUGV
        DQG PDNH WKHP DYDLODEOH RQ WKH ORFDO DUHD QHWZRUN IRU UHDG RQO\ DFFHVV E\
        FRQWUDFW VSHFLDOLVW DQG ILQDQFH SHUVRQQHO>
      P 5HTXLUH WKH FDOO UHFRUGV EH UHYLHZHG E\ FRQWUDFW VSHFLDOLVWV RQ D UHJXODU EDVLV
        WR HQVXUH FRPSOLDQFH ZLWK )$5 DQG WHUPV RI WKH EODQNHW SXUFKDVH
        DJUHHPHQWV> DQG
      P 8VH FDOO UHFRUGV DV WKH EDVLV IRU UHFRUGLQJ REOLJDWLRQV IRU EODQNHW SXUFKDVH
        DJUHHPHQWV DQG RWKHU LQGHILQLWH GHOLYHU\ DJUHHPHQWV1
$OO DJUHHG XSRQ DFWLRQV ZHUH FRPSOHWHG RQ 6HSWHPEHU 4;/ 53331




                                         48
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                 ,163(&7,216

                                ,QVSHFWLRQ 5HSRUW /LVW
'XULQJ WKLV SHULRG RQH LQVSHFWLRQ UHSRUW ZDV LVVXHG DV VXPPDUL]HG EHORZ1




                       6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV


,QGHSHQGHQW (YDOXDWLRQ RI (',6 ,, +5HYLHZ RI
%XVLQHVV &DVH DQG $VVHVVPHQW RI &RVW0%HQHILW
$QDO\VLV,/ ,QVSHFWLRQ 5HSRUW/ 2,*0,5036033
+6HSWHPEHU 5</ 5333,1
KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0,50360331SGI




7KH SXUSRVH RI WKLV ,QVSHFWLRQ ZDV WR DVVHVV WKH YDOLGLW\ RI WKH &RVW0%HQHILW $QDO\VLV +&%$,
VXEPLWWHG WR WKH ,QIRUPDWLRQ 5HVRXUFHV 6WHHULQJ &RPPLWWHH +,506&, WR VXSSRUW D GHFLVLRQ
RQ UHSODFLQJ WKH &RPPLVVLRQ·V (OHFWURQLF 'RFXPHQW ,PDJLQJ 6\VWHP +(',6, ZLWK DQ
XSGDWHG (',60,, V\VWHP1

:H PDGH WKH IROORZLQJ ILQGLQJV UHJDUGLQJ WKH &%$ SURYLGHG WR WKH ,506&=

       P 7KH &%$ GLG QRW SURYLGH D FRPSOHWH EDVLV IRU LWV HVWLPDWHV RI FRVWV DQG
         EHQHILWV IRU (',61

       P 7KH &%$ GLG QRW FRQVLGHU DOO VLJQLILFDQW RSHUDWLQJ FRVWV DVVRFLDWHG ZLWK
         (',61

       P $VVXPSWLRQV DQG FRQVWUDLQWV UHJDUGLQJ FRVW VDYLQJV ZHUH QRW DGHTXDWHO\
         GRFXPHQWHG1

       P 7KH &%$ GLG QRW XVH GLVFRXQWLQJ RI IXWXUH FRVWV DQG EHQHILWV DV VSHFLILHG E\
         20% &LUFXODU $0<7 DQG LQ DFFRUGDQFH ZLWK VWDQGDUG SUDFWLFH1

                                            4:
                                        ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




       P 7KH &%$ GLG QRW FRQVLGHU DOWHUQDWLYHV WR WKH SURSRVHG (',60,, VROXWLRQ/ DV
         VSHFLILHG E\ 20% &LUFXODU $0<71 ,Q SDUWLFXODU/ WKH &%$ GLG QRW DGHTXDWHO\
         FRQVLGHU DQ DOO0HOHFWURQLF ILOLQJ DQG GLVWULEXWLRQ DOWHUQDWLYH WKDW ZRXOG IXOO\
         DFFRUG ZLWK WKH SURYLVLRQV RI WKH *RYHUQPHQW 3DSHUZRUN (OLPLQDWLRQ $FW
         +*3($, RI 4<<;1
,Q YLHZ RI RXU ILQGLQJV UHJDUGLQJ WKH &%$/ ZH VXJJHVWHG WKDW WKH &RPPLVVLRQ FRQGXFW D
QHZ %HQHILW0&RVW $QDO\VLV +%&$, WKDW FRQIRUPV WR WKH PHWKRGRORJ\ VSHFLILHG E\ 20%
&LUFXODU $0<7 DQG LOOXVWUDWHG LQ RXU UHSRUW1 :H DOVR VXJJHVWHG WKH &RPPLVVLRQ FRQVLGHU
DPHQGLQJ WKH FXUUHQW (',6 ,, UHTXHVW IRU SURSRVDO +5)3,1 :H PDGH D ILQDO VXJJHVWLRQ WKDW
WKH ,506& FRQVLGHU LVVXLQJ JXLGDQFH RQ WKH SURSHU PHWKRGRORJ\ WR EH XVHG LQ HYDOXDWLQJ
WKH &RPPLVVLRQ·V ,7 LQYHVWPHQWV1 6XFK JXLGDQFH VKRXOG GUDZ XSRQ 20% &LUFXODU $0<7
DQG WKH OHVVRQV OHDUQHG IURP WKH (',6 %&$ DV GRFXPHQWHG E\ RXU UHSRUW1




                                           4;
                                            ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




                             ,19(67,*$7,216
7KH 2,* LQYHVWLJDWHV FRPSODLQWV DQG LQIRUPDWLRQ UHFHLYHG FRQFHUQLQJ SRVVLEOH YLRODWLRQV
RI ODZV/ UXOHV/ DQG UHJXODWLRQV/ PLVPDQDJHPHQW/ DEXVH RI DXWKRULW\/ DQG ZDVWH RI IXQGV1
7KHVH LQYHVWLJDWLRQV DUH LQ UHVSRQVH WR DOOHJDWLRQV/ FRPSODLQWV/ DQG LQIRUPDWLRQ UHFHLYHG
IURP HPSOR\HHV RI 86,7&/ RWKHU JRYHUQPHQW DJHQFLHV/ FRQWUDFWRUV/ DQG RWKHU FRQFHUQHG
LQGLYLGXDOV1 7KH REMHFWLYH RI WKLV SURJUDP LV WR HQVXUH WKH LQWHJULW\ RI 86,7& DQG DVVXUH
LQGLYLGXDOV IDLU/ LPSDUWLDO/ DQG LQGHSHQGHQW LQYHVWLJDWLRQV1


                          6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\
$ VXPPDU\ RI LQYHVWLJDWLYH DFWLYLW\ LV SUHVHQWHG EHORZ1



      &DVH :RUNORDG                  5HIHUUDOV 3URFHVVHG       ,QYHVWLJDWLYH 5HVXOWV
 2SHQ +724233,        3       5HFHLYHG                  9     5HIHUUDOV IRU
                                                              3URVHFXWLRQ              3
 ,QLWLDWHG            4       ,QLWLDWHG ,QYHVWLJDWLRQ   4
                                                              5HIHUUDOV 'HFOLQHG
 &ORVHG               3       5HIHUUHG WR                     IRU 3URVHFXWLRQ          3
                              &RPPLVVLRQ                3
 2SHQ +<263233,       4                                       $GPLQLVWUDWLYH
                              (YDOXDWHG EXW 1R                $FWLRQ                   3
                              ,QYHVWLJDWLRQ
                              ,QLWLDWHG                 8



'XULQJ WKLV UHSRUWLQJ SHULRG/ RQH FDVH ZDV LQLWLDWHG DQG UHPDLQV RSHQ1




                                               4<
                                        ig
                          2FWREHU 5333 6HPL$QQXDO 5HSRUW




                           27+(5 $&7,9,7,(6
5HJXODWRU\ 5HYLHZ
7KH ,QVSHFWRU *HQHUDO $FW/ 8 8161&1 $SS1 6/ 6HFWLRQ 7+D,+5,/ UHTXLUHV WKH 2,* WR UHYLHZ
H[LVWLQJ DQG SURSRVHG OHJLVODWLRQ DQG UHJXODWLRQV DQG WR PDNH UHFRPPHQGDWLRQV
FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ RI
SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG E\ WKH &RPPLVVLRQ1
2,* HYDOXDWHV WKH LPSDFW WKDW QHZ RU UHYLVHG SURFHGXUHV ZLOO KDYH RQ WKH HFRQRP\ DQG
HIILFLHQF\ RI SURJUDPV DQG RSHUDWLRQV1 2,* UHYLHZHG DQG FRPPHQWHG RQ VHYHUDO GUDIW
LQWHUQDO GLUHFWLYHV VXFK DV ,QIRUPDWLRQ 6HFXULW\ DQG 7UDQVSRUWDWLRQ )ULQJH %HQHILW
3URJUDP1 7KH &RPPLVVLRQ LVVXHG D 'LUHFWLYH RQ $WWHQGDQFH DQG /HDYH1


*HQHUDO $FFRXQWLQJ 2IILFH +*$2,
7KH ,QVSHFWRU *HQHUDO $FW VWDWHV WKDW HDFK ,QVSHFWRU *HQHUDO VKDOO JLYH SDUWLFXODU UHJDUG
WR WKH DFWLYLWLHV RI WKH &RPSWUROOHU *HQHUDO RI WKH 8QLWHG 6WDWHV ZLWK D YLHZ WRZDUG
DYRLGLQJ GXSOLFDWLRQ DQG HQVXULQJ HIIHFWLYH FRRUGLQDWLRQ DQG FRRSHUDWLRQ1 'XULQJ WKLV
SHULRG ZH UHYLHZHG WKH IROORZLQJ *$2 UHSRUWV UHODWHG WR LQWHUQDWLRQDO WUDGH=
       P ´:RUOG 7UDGH 2UJDQL]DWLRQ= 6WDWXV RI &KLQD·V 7UDGH &RPPLWPHQWV WR WKH
         8QLWHG 6WDWHV DQG 2WKHU 0HPEHUVµ +/HWWHU 5HSRUW/ 3824925333/
         *$2216,$'0330475,1
       P ´:RUOG 7UDGH 2UJDQL]DWLRQ= 8161 ([SHULHQFH WR 'DWH LQ 'LVSXWH 6HWWOHPHQW
         6\VWHPµ +%ULHILQJ 5HSRUW/ 3924725333µ/ *$2216,$'22*&03304<9%5,1
       P ´:RUOG 7UDGH 2UJDQL]DWLRQ= ,VVXHV LQ 'LVSXWH 6HWWOHPHQWµ +/HWWHU 5HSRUW/
         3;23<25333/ *$2216,$'0330543,1
7KHUH ZHUH QR UHFRPPHQGDWLRQV LQ WKHVH UHSRUWV GLUHFWO\ DIIHFWLQJ WKH &RPPLVVLRQ1




                                          53
                                          ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




/LDLVRQ $FWLYLWLHV

7KH $FWLQJ ,QVSHFWRU *HQHUDO LV DQ DFWLYH PHPEHU RI WKH
,QVSHFWRU *HQHUDO FRPPXQLW\1 +H LV D PHPEHU RI WKH
([HFXWLYH &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\ +(&,(,/
ZKLFK FRQVLVWV SULPDULO\ RI WKH ,QVSHFWRUV *HQHUDO DW
WKH 67 GHVLJQDWHG IHGHUDO HQWLWLHV1 +H DOVR SDUWLFLSDWHV
LQ DFWLYLWLHV VSRQVRUHG E\ WKH 3UHVLGHQW·V &RXQFLO RQ ,Q0
WHJULW\ DQG (IILFLHQF\ +3&,(,/ ZKLFK FRQVLVWV SULPDULO\
RI WKH 3UHVLGHQWLDOO\²DSSRLQWHG ,QVSHFWRUV *HQHUDO1
7KH (&,( DQG 3&,( KDYH LGHQWLFDO IXQFWLRQV DQG UH0
VSRQVLELOLWLHV WR SURPRWH LQWHJULW\ DQG HIILFLHQF\ DQG WR
GHWHFW DQG SUHYHQW IUDXG/ ZDVWH/ DQG DEXVH LQ )HGHUDO
SURJUDPV1

7KH ([HFXWLYH &RXQVHO RQ ,QWHJULW\ DQG (IILFLHQF\ ZDV HVWDEOLVKHG E\ ([HFXWLYH 2UGHU RQ
0D\ 44/ 4<<51 ,W FRQVLVWV RI 'HVLJQDWHG )HGHUDO (QWLW\ ,QVSHFWRUV *HQHUDO DQG
UHSUHVHQWDWLYHV RI WKH 2IILFH RI *RYHUQPHQW (WKLFV/ WKH 2IILFH RI 6SHFLDO &RXQVHO/ WKH
)HGHUDO %XUHDX RI ,QYHVWLJDWLRQV DQG WKH 2IILFH RI 0DQDJHPHQW DQG %XGJHW1
7KH ,*/ DORQJ ZLWK RWKHU DXGLW RIILFLDOV/ ZDV LQYLWHG E\ *$2 WR FRPPHQW RQ SRVVLEOH
UHYLVLRQV WR WKH *RYHUQPHQW $XGLWLQJ 6WDQGDUGV +<HOORZ %RRN, ZKLFK ZRXOG UHYLVH
SURYLVLRQV UHJDUGLQJ JRYHUQPHQW DXGLWRUV· RUJDQL]DWLRQDO LQGHSHQGHQFH1 7KH SURSRVHG
UHYLVLRQV ZRXOG PDNH FHUWDLQ )HGHUDO ,QVSHFWRUV *HQHUDO QR ORQJHU RUJDQL]DWLRQDOO\
LQGHSHQGHQW WR SHUIRUP FHUWDLQ DXGLWV1
:H FRPPHQWHG WKDW WKH SURSRVHG UHYLVLRQ VHW D QHZ UHTXLUHPHQW RI LQGHSHQGHQFH IRU
JRYHUQPHQW DXGLWLQJ ZKLFK/ LI FDUULHG LQWR H[HFXWLRQ/ ZRXOG YLRODWH WKH VWDWXWRU\ GXWLHV
DQG UHVSRQVLELOLWLHV RI WKH )HGHUDO ,QVSHFWRUV *HQHUDO1 7KH ,QVSHFWRU *HQHUDO $FW FUHDWHG
,QVSHFWRUV *HQHUDO DV LQGHSHQGHQW XQLWV WR SHUIRUP DXGLWV/ LQVSHFWLRQV DQG LQYHVWLJDWLRQV1
7R FKDQJH WKH LQGHSHQGHQFH VWDQGDUGV IRU JRYHUQPHQW DXGLWLQJ VR DV WR GHQ\
RUJDQL]DWLRQDO LQGHSHQGHQFH RI )HGHUDO ,QVSHFWRUV *HQHUDO LQ WKH DEVHQFH RI FOHDU
FRQJUHVVLRQDO DXWKRULW\ WR FKDQJH WKH VFRSH RI WKH ,QVSHFWRU *HQHUDO $FW ZRXOG RYHUVWHS
WKH DXWKRULW\ RI WKH *$2 WR SUHVFULEH VWDQGDUGV IRU JRYHUQPHQW DXGLWRUV1




                                            54
                                              ig
                              2FWREHU 5333 6HPL$QQXDO 5HSRUW




             5(3257,1* 5(48,5(0(176 ,1'(;
7KH ,QVSHFWRU *HQHUDO $FW RI 4<:;/ DV DPHQGHG +4<;;,/ VSHFLILHV UHSRUWLQJ UHTXLUHPHQWV
IRU VHPLDQQXDO UHSRUWV1
 &,7$7,21           5(3257,1* 5(48,5(0(176                                           3$*(
 6HFWLRQ 7+D,+5,    5HFRPPHQGDWLRQV FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ          53
                    RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ LQ WKH
                    DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG RU
                    ILQDQFHG E\ WKH &RPPLVVLRQ
 6HFWLRQ 8+D,+4,    'HVFULSWLRQ RI VLJQLILFDQW SUREOHPV/ DEXVHV/ DQG GHILFLHQFLHV    1RQH
                    UHODWLQJ WR WKH DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV
 6HFWLRQ 8+D,+5,    'HVFULSWLRQ RI WKH UHFRPPHQGDWLRQV IRU FRUUHFWLYH DFWLRQ         1RQH
                    PDGH ZLWK UHVSHFW WR VLJQLILFDQW SUREOHPV/ DEXVHV/ RU
                    GHILFLHQFLHV
 6HFWLRQ 8+D,+6,    ,GHQWLILFDWLRQ RI HDFK VLJQLILFDQW UHFRPPHQGDWLRQ GHVFULEHG      1RQH
                    LQ SUHYLRXV VHPLDQQXDO UHSRUWV RQ ZKLFK FRUUHFWLYH DFWLRQ KDV
                    QRW EHHQ FRPSOHWHG
 6HFWLRQ 8+D,+7,    6XPPDU\ RI PDWWHUV UHIHUUHG WR SURVHFXWLYH DXWKRULWLHV DQG         4<
                    WKH SURVHFXWLRQV DQG FRQYLFWLRQV ZKLFK KDYH UHVXOWHG
 6HFWLRQ 8+D,+8,    6XPPDU\ RI HDFK UHSRUW PDGH WR WKH KHDG RI WKH                   1RQH
                    HVWDEOLVKPHQW XQGHU ZKLFK LQIRUPDWLRQ RU DVVLVWDQFH ZDV
                    XQUHDVRQDEO\ UHIXVHG
 6HFWLRQ 8+D,+9,    /LVWLQJ RI HDFK DXGLW UHSRUW                                       43
 6HFWLRQ 8+D,+:,    6XPPDU\ RI HDFK VLJQLILFDQW UHSRUW                               44r4<
 6HFWLRQ 8+D,+;,    6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWVr4XHVWLRQHG &RVWV          57
 6HFWLRQ 8+D,+<,    6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWVr)XQGV 3XW WR %HWWHU       58
                    8VH
 6HFWLRQ 8+D,+43,   6XPPDU\ RI HDFK DXGLW UHSRUW LVVXHG EHIRUH WKH                   1RQH
                    FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG IRU ZKLFK QR
                    PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH E\ WKH HQG RI WKH
                    UHSRUWLQJ SHULRG
 6HFWLRQ 8+D,+44,   'HVFULSWLRQ DQG H[SODQDWLRQ RI WKH UHDVRQV IRU DQ\ VLJQLILFDQW   1RQH
                    UHYLVHG PDQDJHPHQW GHFLVLRQV
 6HFWLRQ 8+D,+45,   ,QIRUPDWLRQ FRQFHUQLQJ DQ\ VLJQLILFDQW PDQDJHPHQW GHFLVLRQ       1RQH
                    ZLWK ZKLFK WKH ,QVSHFWRU *HQHUDO LV LQ GLVDJUHHPHQW




                                                   56
                                        ig
                             2FWREHU 5333 6HPL$QQXDO 5HSRUW




                    7DEOH 4
     $8',7 5(32576 :,7+ 48(67,21(' &2676
                                                                      'ROODU 9DOXH

                                         1XPEHU RI        4XHVWLRQHG          8QVXSSRUWHG
                                           5HSRUWV             &RVWV                &RVWV

$1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI
     WKH SHULRG                                 3                 3                    3

%1   :KLFK ZHUH LVVXHG GXULQJ
     WKH UHSRUWLQJ SHULRG                       3                 3                    3

     6XEWRWDOV +$.%,                            3                 3                    3

&1   )RU ZKLFK D PDQDJHPHQW
     GHFLVLRQ ZDV PDGH GXULQJ
     WKH UHSRUWLQJ SHULRG                       3                 3                    3

     +L,     'ROODU YDOXH RI
             GLVDOORZHG FRVWV                   3                 3                    3

     +LL,    'ROODU YDOXH RI FRVWV
             QRW GLVDOORZHG                     3                 3                    3

'1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH E\
     WKH HQG RI WKH UHSRUWLQJ
     SHULRG                                     3                 3                    3

(1   5HSRUWV IRU ZKLFK QR
     PDQDJHPHQW GHFLVLRQ
     ZDV PDGH ZLWKLQ VL[
     PRQWKV RI LVVXDQFH                         3                 3                    3




                                          57
                                             ig
                            2FWREHU 5333 6HPL$QQXDO 5HSRUW




                     7DEOH 5
     $8',7 5(32576 :,7+ 5(&200(1'$7,216
        7+$7 )81'6 %( 387 72 %(77(5 86(
                                                         1XPEHU RI   'ROODU
                                                           5HSRUWV    9DOXH

$1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI WKH SHULRG                          3        3

%1   :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG              4    '6/;69


             6XEWRWDOV +$.%,                                    4    '6/;69

&1   )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH
     GXULQJ WKH UHSRUWLQJ SHULRG                                4    '6/;69

     +L,     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             DJUHHG WR E\ PDQDJHPHQW                            4    '6/;69

     +LL,    'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             QRW DJUHHG WR E\ PDQDJHPHQW                        3        3

'1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                         3        3

(1   5HSRUWV IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ ZDV PDGH
     ZLWKLQ VL[ PRQWKV RI LVVXDQFH                              3        3




                                                58
                                         ig
                           2FWREHU 5333 6HPL$QQXDO 5HSRUW




                                   */266$5<
7KH IROORZLQJ GHILQLWLRQV DSSO\ WR WKH WHUPV XVHG LQ WKLV UHSRUW1
4XHVWLRQHG &RVW              PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH RI=
                             +4, DQ DOOHJHG YLRODWLRQ RI D SURYLVLRQ RI D ODZ/ UHJXODWLRQ/
                             FRQWUDFW/ JUDQW/ FRRSHUDWLYH DJUHHPHQW/ RU RWKHU DJUHHPHQW RU
                             GRFXPHQW JRYHUQLQJ WKH H[SHQGLWXUH RI IXQGV> +5, D ILQGLQJ
                             WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW VXSSRUWHG E\
                             DGHTXDWH GRFXPHQWDWLRQ> RU +6, D ILQGLQJ WKDW WKH H[SHQGLWXUH
                             RI IXQGV IRU WKH LQWHQGHG SXUSRVH LV XQQHFHVVDU\ RU
                             XQUHDVRQDEOH>
8QVXSSRUWHG &RVW             PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH WKH
                             2IILFH IRXQG WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW
                             VXSSRUWHG E\ DGHTXDWH GRFXPHQWDWLRQ>
'LVDOORZHG &RVW              PHDQV D TXHVWLRQHG FRVW WKDW PDQDJHPHQW/ LQ D PDQDJHPHQW
                             GHFLVLRQ/ KDV VXVWDLQHG RU DJUHHG VKRXOG QRW EH FKDUJHG WR WKH
                             *RYHUQPHQW>
5HFRPPHQGDWLRQ WKDW          PHDQV D UHFRPPHQGDWLRQ E\ WKH 2IILFH WKDW IXQGV FRXOG EH
IXQGV EH SXW WR EHWWHU       XVHG PRUH HIILFLHQWO\ LI PDQDJHPHQW RI DQ HVWDEOLVKPHQW WRRN
XVH                          DFWLRQV WR LPSOHPHQW DQG FRPSOHWH WKH UHFRPPHQGDWLRQ/
                             LQFOXGLQJ=
                             +4, UHGXFWLRQ LQ RXWOD\V> +5, GHREOLJDWLRQ RI IXQGV IURP
                             SURJUDPV RU RSHUDWLRQV> +6, ZLWKGUDZDO RI LQWHUHVW VXEVLG\
                             FRVWV RQ ORDQV RU ORDQ JXDUDQWHHV/ LQVXUDQFH/ RU ERQGV> +7,
                             FRVWV QRW LQFXUUHG E\ LPSOHPHQWLQJ UHFRPPHQGHG
                             LPSURYHPHQWV UHODWHG WR WKH RSHUDWLRQV RI WKH HVWDEOLVKPHQW/
                             D FRQWUDFWRU RU JUDQWHH> +8, DYRLGDQFH RI XQQHFHVVDU\
                             H[SHQGLWXUHV QRWHG LQ SUHDZDUG UHYLHZV RI FRQWUDFW RU JUDQW
                             DJUHHPHQWV> RU +9, DQ\ RWKHU VDYLQJV ZKLFK DUH VSHFLILFDOO\
                             LGHQWLILHG1




                                           59
                      ig
         2FWREHU 5333 6HPL$QQXDO 5HSRUW




    6SHFLDO WKDQNV WR WKH 2IILFH RI 3XEOLVKLQJ
        IRU WKH SURGXFWLRQ RI WKLV UHSRUW=

     .HYHQ %ODNH= &RYHU GHVLJQ DQG SKRWRJUDSK\

3DPHOD '\VRQ= 5HSRUW GHVLJQ DQG FRPSRVLWLRQ VHUYLFHV

      3ULQWLQJ 2SHUDWLRQV= 5HSURGXFWLRQ VHUYLFH




                        5:
  •




                      I GHotline@u sitc.gou
                                or
                  EthicsLine 1-800-500-0333
                                or
              http://w ww.usitc.gou/oig/oighot.htm

THe EthicsLine:is available 24 hours per day. The caller can remain
  a nonym ous. f you prefer, you may send written complaints to:
